la
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
In re the Marriage of
JAMES ALAN CLARK,
Appellant,

No. 79424-8-1
DIVISION ONE
UNPUBLISHED
OPINION

v.
WENDY KRISTINE CLARK,
Respondent.

Filed: January 13
2020

ANDRUS, J. - The trial court denied James
Clark's petition to modify his child support obligation
based on a reduction of employment hours and income.
His appeal is largely focused on arguments that he
failed to preserve for appeal. To the extent he chal­
lenges the merits of the court's decision on his petition
to modify, we conclude that the trial court did not
abuse its discretion and affirm.
FACTS
James and Wendy Clark dissolved their marriage
in 20ll.1 They have two children, who were 6 and 8
years old at the time of the dissolution. The trial court
1 Some of the factual background is derived from this court’s
recent unpublished decision resolving James’s appeal of a 2017
order entered earlier in this proceeding. See Clark v. Clark, No.
77253-8-1 (Wash. Ct. App. June 11, 2018) (unpublished) http://
www.courts.wa.gov/opinions/pdf/772538.pdf. As in our prior opin­
ion, because the parties share the same last name, we refer to
them by first name for clarity.

2a
entered agreed orders that equally allocated residen­
tial time with the children and apportioned the child
support obligation according to the standard child sup­
port calculation based on each parent’s proportionate
share of the combined income.2
Approximately one year after the final orders were
entered, James began multiple attempts to reduce his
child support obligation, seeking to deviate from the
standard child support calculation based on the sub­
stantial amount of time the children reside in his
household. See RCW 26.19.075(l)(d).3 The court re­
jected these requests.
In 2014, after the court had denied two petitions
to reduce support and awarded attorney fees to Wendy
in connection with one of those requests, James filed a
petition to modify support. He again requested a devi­
ation based on the shared residential schedule. A court
commissioner denied the motion, observing that a de­
viation for residential credit is discretionary and
2 The record on appeal does not include the final dissolution
and child support orders entered in 2011, but James does not dis­
pute that he agreed to an amount of child support that did not
deviate from the standard calculation.
3 RCW 26.19.075(l)(d) provides, in pertinent part:
The court may deviate from the standard calculation
if the child spends a significant amount of time with
the parent who is obligated to make a support transfer
payment. The court may not deviate on that basis if the
deviation will result in insufficient funds in the house­
hold receiving the support to meet the basic needs of
the child or if the child is receiving temporary assis­
tance for needy families. . . .

3a
generally not warranted where there is a significant
disparity in the parents’ income. At the hearing on
James’s motion, the commissioner explained:
The bigger the differential in income, the less
likely you are to get a residential credit, and
the reason for that is because the household
that has 50 percent of the time with the lower
income is at an economic disadvantage in
maintaining the life that these kids have . . .
The commissioner denied Wendy’s fee request, but cau­
tioned James that she would “absolutely” award fees if
he filed another motion raising the same argument.
In 2017, James filed a petition to modify the par­
enting plan. This time, he proposed a slight increase in
his residential time with the children, along with a re­
duction of child support. James described his proposal
as a “college savings plan,” which would allow him to
set aside over $1,000 per month for future postsecond­
ary education expenses. While urging the court to dis­
miss James’s petition, Wendy also sought an
adjustment of child support, because it had been two
years since entry of the previous order of support and
one of the children had moved into a new age bracket.
See RCW 26.09.170(6)(b) (allowing for adjustment af­
ter one year if a child is no longer in the age category
upon which the support obligation is based).
A commissioner denied James’s petition, describ­
ing it as a “cynical” and transparent attempt to further
his own financial interests. The commissioner granted
Wendy’s requested adjustment and awarded her

4a
attorney fees. The superior court denied James’s mo­
tion for revision and awarded additional attorney fees
to Wendy. This court upheld the superior court’s order
on appeal. See Clark v. Clark. No. 77253-8-1 (Wash. Ct.
App. June 11, 2018) (unpublished) http://www.courts.
wa.gov/opinions/pdf7772538.pdf.
The 2017 child support order required James to
make a transfer payment of $2,054 to Wendy based on
his 72 percent proportional share of the combined in­
come. The order states:
Father has requested [a] residential deviation
which has been denied multiple times by the
court due to disparity in income between the
parties. Downward deviation for post-secondary support is untimely due to [the] age of the
children.
While James’s appeal was pending, he refused to
pay the full amount of child support. As a result, on
June 26, 2018, a court commissioner found James in
contempt for failing to comply with the July 2017 sup­
port order. The court ordered him to pay the child sup­
port arrearage as well as attorney fees and costs of
more than $2,500 to Wendy.
On August 1, 2018, James filed the petition at is­
sue in this appeal, seeking to modify child support
based on an alleged substantial change of circum­
stances with respect to his employment and income.
See RCW 26.09.170(5)(a) (“[a] party to an order of child
support may petition for a modification based upon a
showing of substantially changed circumstances at

5a
any time”). James also asserted that the current sup­
port order had been in place for at least a year and
created a “severe economic hardship.” See RCW
26.09.170(6)(a) (support order may be modified if it has
been in place for at least a year without a showing of
substantially changed circumstances if the order cre­
ates a “severe economic hardship.”).
James explained that he had been involuntarily
laid off by his employer, Northrop Grumman Corpora­
tion (Northrop), on July 26, 2018, and hired by a differ­
ent company, Engineering Services Network (ESN),
the following day. However, James stated that while he
was reemployed at approximately the same hourly
rate of pay, his new position at ESN was part-time.
Consequently, he claimed his annual salary was re­
duced to approximately half of his 2017 income.
James stated that his part-time schedule would al­
low him to restart a consulting business he had oper­
ated in the past. While he predicted that it would take
approximately a year for the new business to become
profitable, James opined that developing his own busi­
ness would ultimately increase his earning potential
and said he could “picture roles in the company” for his
children in the future. James argued that, as a result
of his reduced income, there was no longer a substan­
tial disparity between his income and Wendy’s. He be­
lieved that it was “long past time” for the court to
award a residential credit under RCW 26.19.075(l)(d)
in light of the parties’ equal residential time. Based on
his projected new income, James claimed that his

6a
monthly child support obligation should be reduced to
$1,059.
Two months later, James sought a temporary or­
der eliminating his child support transfer payment. He
also reiterated his challenges to the 2017 child support
order that had been recently affirmed on appeal, in­
cluding his claims that the existing child support order
was detrimental to the children because it prevented
him from saving for their future educational expenses
and that he was entitled to a residential credit devia­
tion.
Wendy opposed modification, arguing that James’s
decision to accept part-time employment was not a ba­
sis to modify the 2017 order. Wendy explained that
Northrop, James’s employer for the preceding 13 years,
historically issued layoff notices before its defense con­
tract was renewed and then promptly rehired its em­
ployees after renewal. Wendy pointed out that James
did not say whether he had been offered full-time em­
ployment and observed that his latest motion repre­
sented his sixth attempt since 2011 to reduce child
support.
James denied that he was voluntarily underem­
ployed. He argued Wendy had no personal knowledge
of the negotiations surrounding his 2018 layoff and re­
hiring, but at the same time, he provided no infor­
mation to verify that he was not offered reemployment
with Northrop or that he was not offered full-time em­
ployment at any rate of pay.

7a
At the October 2018 hearing on his motion, James
argued that the transfer payment required by the 2017
support order was neither sustainable nor equitable in
light of his reduced income. But instead of elaborating
on his employment options, James focused on the pre­
viously-litigated issue of a deviation based on residen­
tial credit. James said that his purpose, “[f]irst and
foremost,” was to obtain a residential credit deviation.
James claimed that any payment above $1,440, which
represented fifty percent of the total child support ob­
ligation, was “backdoor! ]” maintenance. James also in­
formed the commissioner that he had obtained all the
credentials to become a “digital forensics expert wit­
ness,” and that he expected to substantially increase
his income “within the next year.”
The commissioner denied the motion to modify,
concluding there was no substantial change in circum­
stances to warrant modification of child support. The
commissioner noted that James’s requests for a discre­
tionary deviation based on residential credit had been
previously denied based on a significant disparity in
the parties’ incomes and that, since he planned to work
full-time and to expand his salary base in the near fu­
ture, the disparity was not eliminated. The commis­
sioner denied reconsideration and ordered James to
pay Wendy approximately $8,000 in attorney fees.
James filed a motion to revise the commissioner’s
ruling. Wendy then filed a motion seeking to declare
James a vexatious litigant and to require that he post
a bond before filing further pleadings seeking

8a
affirmative relief. She also requested attorney fees in­
curred in responding to James’s motion to revise.
Following a hearing on both motions, the trial
court denied James’s motion to revise, based on a de
novo review of the record before the commissioner, but
granted Wendy’s motion to declare James to be a vexa­
tious litigant. The court entered an order placing limi­
tations on James’s ability, for a year, to file petitions or
motions pertaining to child support. The court denied
Wendy’s request for attorney fees.
James appeals from the order denying revision
and the order granting Wendy’s motion to prevent vex­
atious litigation.
ANALYSIS
A. Constitutional Arguments
James primarily argues on appeal that he is enti­
tled to a deviation from the standard calculation child
support obligation. He claims that the failure to apply
a deviation in a case of equally allocated residential
time violates several constitutional principles, includ­
ing substantive and procedural due process and equal
protection. He also challenges the constitutionality of
the statutory provision governing residential credit de­
viations, RCW 26.19.075(l)(d), insofar as it does not re­
quire deviations in cases involving a 50/50 residential
schedule.
But James did not argue below that a residential
credit deviation was constitutionally required and

9a
did not challenge the constitutionality of RCW
26.19.075(l)(d). Under RAP 2.5(a), we generally do not
entertain issues not raised in the trial court in order to
encourage the efficient use of judicial resources. Rapid
Settlements. Ltd, v. Svmetra Life Ins. Co.. 166 Wn. App.
683, 695, 271 P.3d 925 (2012).
RAP 2.5(a)(3) provides an exception to this rule. To
determine whether to consider an unpreserved error
under RAP 2.5(a)(3), we inquire whether (1) the error
is truly of a constitutional magnitude and (2) whether
it is manifest. An error is manifest when the asserted
error has practical and identifiable consequences in
the trial court. Aventis Pharmaceutical. Inc, v. State. 5
Wn. App. 2d 637, 650, 428 P.3d 389 (2018). Manifest
error must be “obvious on the record,” and “unmistak­
able, evident, or indisputable.” State v. O’Hara. 167
Wn.2d 91, 100, 217 P.3d 756 (2009); State v. Lvnn. 67
Wn. App. 339, 345, 835 P.2d 251 (1992).
James does not allege, much less establish, mani­
fest constitutional error. His contention that RCW
26.19.075(l)(d) is unconstitutional is unsupported and
conclusory. He provides no cogent argument or persua­
sive authority that supports his position that child
support allocated in accordance with each parent’s pro­
portionate share of the combined income is not nar­
rowly tailored and does not advance a compelling state
interest. See In re Custody of Smith. 137 Wn.2d 1, 1415, 969 P.2d 21 (1998) (parental autonomy is a funda­
mental liberty interest protected by the Fourteenth
Amendment upon which the State may not intrude
without a compelling interest and narrow tailoring).

10a
Rather than addressing the criteria of RAP 2.5(a)(3),
James simply explains that he failed to raise the con­
stitutional issues below because “due process argu­
ments concerning errors of law belong in front of the
appellate court.” Although James raises numerous and
extensive constitutional arguments related to a devia­
tion based on the shared residential schedule, he fails
to make a plausible showing that the alleged error is
manifest. We therefore decline to address James’s con­
stitutional arguments.
B. Substantial Change in Circumstances
James argues the court below erred in denying his
request to modify child support based on his alleged
substantial change of circumstances. Washington
courts have statutory and equitable powers to modify
support orders. RCW 26.09.175; Pippins v. Jankelson.
110 Wn.2d 475, 478, 754 P.2d 105 (1988). As a general
rule, courts must find a substantial change of circum­
stances before modifying a support order. RCW
26.09.170(5); Pippins. 110 Wn.2d 475.
“On a revision motion, a trial court reviews a com­
missioner’s ruling de novo based on the evidence and
issues presented to the commissioner.” In re Marriage
of Williams. 156 Wn. App. 22, 27, 232 P.3d 573 (2010).
“When an appeal is taken from an order denying revi­
sion of a court commissioner’s decision, we review the
superior court’s decision, not the commissioner’s.” Wil­
liams. 156 Wn. App. at 27. We review such an order for
manifest abuse of discretion. In re Marriage of

11a
Schumacher. 100 Wn. App. 208, 211, 997 P.2d 399
(2000). A trial court abuses its discretion if its decision
is manifestly unreasonable, or is based on untenable
grounds or an erroneous view of the law. In re Marriage
of Scanlon. 109 Wn. App. 167, 174-75, 34 P.3d 877
(2001).
James contends that the court “ignored” his
changed circumstances and reduced income. He also
claims that the court failed to appreciate his need to
“prioritize” the children by working less than full-time
in order to fulfill his substantial caretaking responsi­
bilities. But the denial of James’s motion does not, in
and of itself, suggest that the court failed to consider
his new circumstances. The record supports the conclu­
sion that James was likely to experience only a tempo­
rary reduction in income and that he had no intention
of relying solely on part-time income from ESN. Ac­
cording to James’s financial documents, his reported
expenses, excluding child support, significantly ex­
ceeded his new income from ESN.4 James conceded
that part-time employment was “not a long term op­
tion” for him. He admitted it would be appropriate to
credit him immediately with additional annual earn­
ings generated by his new business of between $18,000
and $30,000. The court had a basis in the record for
rejecting James’s argument that his employment sta­
tus would lead to a significant reduction in his income.
4 According to James’s financial declaration submitted in Au­
gust 2018 in conjunction with his petition to modify support, at
his new monthly income, his household would operate at a
monthly deficit of approximately $5,000.

12a
James also did not establish that his salary reduc­
tion was unavoidable. He did not describe any specific
efforts to secure full-time employment and did not spe­
cifically say whether he was offered full-time employ­
ment, or what, if any, offer his previous employer made.
Instead, he vaguely asserted that the “layoff/rehire
process can be brutal,” that managers he previously re­
ported to had left, that his “program” was “in flux,” and
that the “overall workload” was reduced. He provided
very few details and nothing to substantiate his claim
that, by accepting part-time hours, he had “saved his
job.”
James also asserted below that he accepted re­
duced hours in order to meet the needs of his teenaged
children. This assertion, however, is arguably incon­
sistent with his historical ability to work full-time and
manage his parenting responsibilities and his conten­
tion that he needs the additional time to develop his
own business. The record shows that the children have
resided with James 50 percent of the time since 2011,
and he apparently worked full-time throughout that 7year period. And his stated intent was to devote his ad­
ditional available hours, not to his children, but to de­
veloping a business. The court did not manifestly
abuse its discretion in finding James’s arguments to be
unconvincing. Because the court rejected James’s con­
tention that there has been a substantial change in cir­
cumstances, it did not abuse its discretion in rejecting
his request for a residential credit.
James cites In re Marriage of Pavne. 82 Wn. App.
147, 916 P.2d 968 (1996), to argue that the court

13a
abused its discretion because his child support obliga­
tion is based on prior, not current, earnings. His reli­
ance on Pavne is misplaced. The father in Pavne
earned approximately $600 less per month after he
moved to Seattle to be closer to his daughter following
the mother’s relocation. Pavne. 82 Wn. App. at 151. We
concluded the trial court did not err in calculating the
father’s child support obligation based on his projected
future income in Seattle, rather than his prior earn­
ings, because to do otherwise would “unfairly penalize”
him for moving. Id- In those circumstances, we deemed
the father’s slightly higher income from a previous po­
sition to be irrelevant. Payne is distinguishable be­
cause, unlike the case here, the change in income was
not associated with probable voluntary reduced work
hours, but a change in location and employer due to the
other parent’s relocation. See RCW 26.09.170(5)(b)
(“An obligor’s voluntary unemployment or voluntary
underemployment, by itself, is not a substantial
change of circumstances.”)
James also cites Schumacher for the position that
full-time employment need not always amount to 40
hours per week. But unlike the father in that case,
James does not argue, here or below, that less than 40
hours should be considered full-time employment, in
view of his work history, education, age, and other rel­
evant factors. See Schumacher. 100 Wn. App. at 215.
Based on the record here, the trial court did not
abuse its discretion in denying James’s petition to
modify the child support order.

14a
C. Vexatious Litigation Order
James also challenges the court’s order placing
temporary limitations on his ability to challenge the
order of child support.
“[A] court may, in its discretion, place reasonable
restrictions on any litigant who abuses the judicial
process.” See In re Marriage of Giordano. 57 Wn. App.
74, 78, 787 P.2d 51 (1990). Here, the court found that
James had “engaged in a pattern of abusive litigation
tactics that constitute vexatious litigation regarding
child support, particularly the issue of a residential
credit.” The court noted that James’s “comments at oral
argument support this finding.”5 The court determined
that it was “appropriate and necessary” to place re­
strictions on James’s ability to file future motions per­
taining to child support. Specifically, the order
prohibits James from filing any motions regarding
child support within a year of the court’s December 11,
2018 order unless he is represented by a licensed at­
torney, or unless he either (1) posts a $10,000 bond in
the superior court registry prior to filing a petition or
motion, or (2) obtains prior approval of a court commis­
sioner before filing a new petition or motion.6

5 The hearing on the motions was apparently not transcribed
and a report of the proceeding is not included in the record on
appeal.
6 In these proceedings involving his 2018 petition, James has
represented himself pro se, but it appears that he was repre­
sented by counsel earlier in the litigation.

15a
James does not challenge the finding that he en­
gaged in “abusive litigation tactics that constitute
vexatious litigation,” or otherwise challenge the suffi­
ciency of the court’s findings. The only argument he
raises with respect to the order is that he cannot be
deemed a vexatious litigant because he complied with
statutory requirements as to the timing of his June
2017 and August 2018 petitions. See RCW
26.09.170(6), (7). But James provides no authority or
reasoned argument to support his position. As a gen­
eral matter, we decline to address arguments that are
unsupported by citation to authority or cogent argu­
ment. See RAP 10.3(a)(6); Cowiche Canvon Conserv­
ancy v. Bosley. 118 Wn.2d 801,809,828 P.2d 549 (1992).
James does not challenge any of the specific re­
strictions or contend that the injunction was overly
broad. Yurtis v. Phipps. 143 Wn. App. 680, 693,181 P.3d
849 (2008) (courts must be careful not to impose overly
comprehensive injunctions that restrict litigation).
And he fails to mention critical facts about the scope of
the order. The order was not a moratorium and set
forth three separate means by which James could seek
relief from child support prior to expiration of the or­
der. See Giordano. 57 Wn. App. at 78 (no abuse of dis­
cretion where trial court’s order restricting ability to
file motions did not amount to a “total denial of access”
to the court). James fails to establish that the court
abused its discretion.

16a
D. Attorney Fees
Wendy requests attorney fees on appeal, citing
RAP 18.1, RCW 26.09.140, and RAP 18.9 based on her
need and James’s ability to pay, principles of intransi­
gence, and a frivolous appeal.
This court has the discretion to award attorney
fees on appeal under RAP 18.1(a) if authorized by ap­
plicable law. RCW 26.09.140 allows the appellate court,
in its discretion, and based on consideration of the “fi­
nancial resources” of both parties, to order a party to
pay the attorney fees of the other party in cases gov­
erned by chapter 26.09 RCW. The court may also award
fees based on conduct that may be characterized as
“foot-dragging” or “obstructionist.” MacKenzie v. Barthol. 142 Wn. App. 235, 242, 173 P.3d 980 (2007); Eide
v, Eide. 1 Wn. App. 440, 445, 462 P.2d 562 (1969). And
under RAP 18.9, the appellate court may impose fees
against a party who files a frivolous appeal. “An appeal
is frivolous if the appellate court is convinced that the
appeal presents no debatable issues upon which rea­
sonable minds could differ and is so lacking in merit
that there is no possibility of reversal.” In re Marriage
of Folev. 84 Wn. App. 839, 847, 930 P.2d 929 (1997).
We conclude that attorney fees are warranted un­
der RAP 18.9 because James’s appeal lacks merit. He
largely focused on issues not properly before us, did not
assign error to any of the key factual findings, failed to
brief in any meaningful way the basis for reversing the
finding that he is a vexatious litigant, and presented
no debatable issues for review. We therefore grant

17a
Wendy’s request for attorney fees and costs under RAP
18.9, subject to her compliance with RAP 18.1.
Affirmed.
/s/ Andrus, J.

WE CONCUR:
/s/ [Illegible]

/s/ [Illegible]

18a
IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON IN AND FOR
THE COUNTY OF SNOHOMISH
Case No.: 10-3-01158-9

In re the Marriage of:

ORDER ON RE­
SPONDENT’S MO­
Petitioner,
TION TO PREVENT
and
PETITIONER’S VEX­
ATIOUS
LITIGATION
WENDY KRISTINE CLARK,
(Filed Dec. 11, 2018)
Respondent.
JAMES ALAN CLARK,

Clerk’s Action Required
I.

BASIS FOR ORDER

This matter carne before the Court on December
11, 2018, on Respondent’s Motion to Prevent Peti­
tioner’s Vexatious Litigation. Petitioner was timely
served with this Motion.
The Court, having considered the files and records
herein, the argument of Petitioner and Respondent’s
counsel, enters as order as follows:
II.

FINDINGS

The Court finds Petitioner has engaged a pattern
of abusive litigation tactics that constitute vexatious
litigation regarding child support, particularly the is­
sue of a residential credit. [Specifically, Petitioner’s
comments at oral argument support this finding.]

19a
[Based on the cases cited by Respondent, the court
finds it is appropriate and necessary to impose re­
strictions and limitations on Petitioner ability to file
future motions re: child support.!
III.

ORDER

NOW, THEREFORE, IT IS HEREBY ORDERED:
1. Petitioner shall be required to post a bond in
the Snohomish County Superior Court registry in the
amount -of-no less than $10,000.00 prior to filing any
pleading requesting affirmative relief regarding child
support, such as a Motion or Petition, the above cap
tioned action. [NOT FILE ANY FURTHER MOTIONS
OR PETITIONS RE: CHILD SUPPORT FOR ONE
YEAR (I.E. THROUGH DEC. 11, 2019) UNLESS HE
IS REPRESENTED BY A LICENSED ATTORNEY,
EXCEPT AS PROVIDED BELOW.]
2. The full amount of said bond shall be awarded
in full to Respondent in the event Petitioner’s mo
tion/petition is denied. [IF PETITIONER CHOOSES
TO PROCEED PRO SE, HE MAY DO SO WITH THE
FOLLOWING REQUIREMENTS:
A. PETITIONER SHALL POST A BOND IN
THE SUPERIOR COURT REGISTRY IN THE
AMOUNT OF $10,000.00 PRIOR TO FILING ANY
PETITION OR MOTION; OR
B. PETITIONER SHALL FIRST OBTAIN AP­
PROVAL FROM A COURT COMMISSIONER BE­
FORE FILING ANY PETITION/MOTION.]

20a
St—In the event Petitioner files a pleading (motion/
petition) seeking affirmative relief without paying the
bond amount, the matter 3hall not be addressed by the
Court until the bond is paid. [No matters re: child sup­
port shall be heard if the above requirements are not
satisfied.]
DONE IN OPEN COURT this nth day of Decem­
ber, 2018.
/s/ [Illegible]
JUDGE/COURT COMMISSIONER
Presented by:
BREWE LAYMAN P.S.
Attorneys at Law
By/s/ Karen D. Moore
Karen D. Moore, WSBA 21328
Attorney for Respondent
Copy Received, Approved for Entry,
Notice of Presentation Waived:
By/s/ James Clark
James Clark, Pro Se
Petitioner

21a
IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON IN AND FOR
THE COUNTY OF SNOHOMISH

[CLARK]
PLAINTIFF/
PETITIONER
and
[CLARK]
DEFENDANT/
RESPONDENT

)
)
)
)
)
)
)
)
)

NO. [10.3.011589]
ORDER [ON PETI­
TIONER’S MOTION
FOR REVISION]
(Filed Dec. 11, 2018)

IT IS HEREBY ORDERED: [BASED ON DE NOVO
REVIEW OF THE RECORD BEFORE COMMIS­
SIONER BRUDVICK THIS COURT DENIES PETI­
TIONER’S MOTION FOR REVISION. RESPONDENT’S REQUEST FOR ATTORNEY’S FEES IS
DENIED.]
DONE IN OPEN COURT this date: [DECEMBER 11.
20181
Presented By:
/s/ Karen D. Moore 21320
[Attorney for Respondent
Karen D. Moore]
Copy Received:
/s/ James A, Clark

/s/ [Illegible]
JUDGE/COURT
COMMISSIONER

22a
IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON IN AND FOR
THE COUNTY OF SNOHOMISH
[James Clark]
PLAINTIFF/
PETITIONER
and
DEFENDANT/
RESPONDENT
[Wendy Clark]

)
)
)
)
)
)
)
)

NO. [10.3.01158.9]
ORDER [ON
RECONSIDERATION]
(Filed Nov. 19, 2018)

IT IS HEREBY ORDERED: [Petitioner’s Motion for
Reconsideration of this Court’s Order of 10/24/18. is
denied.]

DONE IN OPEN COURT this date: 11/19/18
Presented By:
/s/ [Illegible]

/s/ Jacalyn D. Brudvik
COMMISSIONER

Copy Received:
/s/ James A. Clark

23a
SUPERIOR COURT OF
WASHINGTON
FOR SNOHOMISH COUNTY
JAMES CLARK
(PETITIONER)
AND
WENDY CLARK
(RESPONDENT)

CAUSE NO.: 10-3-01158-9
COMMISSIONER:
JACALYN D. BRUDVIK
CLERK: A. PIERCE
DATE: 11/19/18 @9:00 AM
DIGITALLY RECORDED

THIS MATTER CAME ON FOR:
MOTION HEARING FOR ORDER AWARDING
ATTORNEY FEES; RECONSIDERATION OF
COMMISSIONER BRUDVIK’S ORDER DATED
10/24/18
CONTINUED DATE/TIME/SESSION NAME/
CONTINUANCE CODE:
HEARING DATE SET/TIME/SESSION NAME:
ACTION:

HEARING STRICKEN/CODE:
PETITIONER APPEARED: YES
RESPONDENT APPEARED: YES
GUARDIAN AD LITEM APPEARED: NO
COUNSEL: PRO SE
COUNSEL: KAREN MOORE

24a
DOCUMENTS FILED:
ORDERS ENTERED: ORDER AWARDING ATTOR­
NEY FEES, TO BE FILED BY
COUNSEL MOORE; ORDER
ON RECONSIDERATION
PROCEEDINGS/COURT’S FINDINGS:
THE COURT DENIES THE PETITIONER’S MO­
TION FOR RECONSIDERATION OF THE ORDER
FROM OCTOBER 24, 2018.
THE COURT GRANTS THE RESPONDENT’S MO­
TION FOR ATTORNEY FEES IN THE AMOUNT OF
$7,898.21.00.

25a
IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON
IN AND FOR THE COUNTY OF SNOHOMISH

JAMES CLARK
PLAINTIFF/PETITIONER

)
)
)

)
)
and
)
WENDY CLARK
)
>
DEFENDANT/RESPONDENT)

NO. 10.3.01158.9
ORDER ON
PETITION FOR
MODIFICATION
, . , „.
(Filed Oct. 24,
2018)

IT IS HEREBY ORDERED: PETITION FOR MODIFI­
CATION IS DENIED. COURT FINDS NO SUBSTAN­
TIAL CHANGE IN CIRCUMSTANCES EXISTS TO
WARRANT MODIFICATION. RESIDENTIAL CREDIT
IS NOT APPROPRIATE BASED ON DIFFERENCE
IN INCOMES OF PARTIES.
RESPONDENT’S REQUEST FOR ATTORNEY FEES
MAY BE RE-NOTED FOR HEARING
DONE IN OPEN COURT this date: 10/24/18
Presented By:
/s/ KM
#21328
KAREN D. MOORE
ATTORNEY FOR
RESPONDENT

/s/ Jacalyn D Brudvik
JUDGE/COURT
COMMISSIONER

26a
Copy Received:
/s/ James Clark

27a
SUPERIOR COURT OF
WASHINGTON
FOR SNOHOMISH COUNTY
JAMES CLARK
(PETITIONER)
AND
WENDY CLARK
(RESPONDENT)

CAUSE NO.: 10-3-01158-9
COMMISSIONER:
JACALYN D. BRUDVIK
CLERK:

A. PIERCE

DATE: 10/24/18 @ 9:00 AM
DIGITALLY RECORDED

THIS MATTER CAME ON FOR: MODIFY CHILD
SUPPORT
CONTINUED DATE/TIME/SESSION NAME/
CONTINUANCE CODE:
HEARING DATE SET/ TIME/SESSION NAME:
ACTION:
HEARING STRICKEN/CODE:
PETITIONER
APPEARED: YES

COUNSEL: PRO SE

RESPONDENT
APPEARED: NO

COUNSEL: KAREN MOORE

GUARDIAN AD LITEM APPEARED: NO
DOCUMENTS FILED:
ORDERS ENTERED: ORDER ON PETITION FOR
MODIFICATION, TO BE FILED BY COUNSEL
MOORE

28a
PROCEEDINGS/COURT’S FINDINGS:
THE COURT DENIES THE PETITIONER'S RE­
QUEST FOR A RESIDENTIAL CREDIT DUE TO
THE DISPARITY IN INCOMES AND THAT THE PE­
TITIONER HIMSELF STATES HE IS WORKING TO­
WARDS BECOMING EMPLOYED FULL TIME AND
EXPECTS TO BE EMPLOYED FULL TIME IN THE
NEAR FUTURE.
THE COURT DENIES AND DISMISSES THE PETI­
TION TO MODIFY THE ORDER OF CHILD SUP­
PORT AS THERE HAS NOT BEEN A SUBSTANTIAL
CHANGE IN CIRCUMSTANCES.

29a
SUPERIOR COURT OF
WASHINGTON
FOR SNOHOMISH COUNTY
JAMES CLARK
(PETITIONER)
AND
WENDY CLARK
(RESPONDENT)

CAUSE NO.: 10-3-01158-9
JUDGE: ANNA G.
ALEXANDER
CLERK: JESIKA FULLER
DATE: 4-28-2020 @ 9:00 AM.
DIGITALLY RECORDED

THIS MATTER CAME ON FOR: MODIFY CHILD
SUPPORT
CONTINUED DATE/TIME/SESSION NAME/
CONTINUANCE CODE:
HEARING DATE SET/ TIME/SESSION NAME:
ACTION:
HEARING STRICKEN/CODE:
PETITIONER
APPEARED: YES, COUNSEL: PRO SE
VIA TELEPHONE
RESPONDENT
APPEARED: NO

COUNSEL: KAREN MOORE,
VIA TELEPHONE

GUARDIAN AD LITEM APPEARED: NO
DOCUMENTS FILED:

30a
ORDERS ENTERED: ORDER RE: PETITIONER’S
MOTION TO MODIFY
CHILD SUPPORT; TEMPO­
RARY CHILD SUPPORT OR­
DER; AND WASHINGTON
STATE CHILD SUPPORT
SCHEDULE WORKSHEETS
PROCEEDINGS/COURT'S FINDINGS:
THE COURT DOES NOT FIND CREDIBLE THE
INFORMATION IN THE SUBMISSIONS THAT THE
EXPENSES ARE SIGNIFICANTLY INCREASED
SUCH THAT A RESIDENTIAL CREDIT IS APPRO­
PRIATE AT THIS TIME. THE COURT WILL NOT
ORDER A RESIDENTIAL CREDIT THE COURT
FINDS IT APPROPRIATE TO MODIFY THE CHILD
SUPPORT ORDER BECAUSE THE SCHEDULE HAS
CHANGED AND IT HAS BEEN TWO YEARS. THE
COURT ALSO FINDS IT APPROPRIATE TO TRANS­
FER THE CASE TO BINDING ARBITRATION ON
THE OTHER ISSUES. ARBITRATION IS TO BE
PAID BY THE PETITIONER. THE COURT FINDS IT
IS A REASONABLE AND APPROPRIATE REQUEST
FOR THE PETITIONER TO PAY ATTORNEY FEES
IN THE AMOUNT OF $2,500.00 BASED ON PETI­
TIONER’S ABILITY TO PAY. THE COURT BE­
LIEVES THAT THE GROSS MONTHLY INCOMES
AS INDICATED IN CHILD SUPPORT WORKSHEET
ARE THE RIGHT NUMBERS AT THIS TIME. THE
PETITIONER’S INCOME IS $14,558.27 IMPUTED
AT 40 HOURS PER WEEK. THE RESPONDENT'S
INCOME IS $5,861.40. THEREFORE THE

31a
STANDARD CALCULATION WILL BE $1,547.32.
THE TEMPORARY CHILD SUPPORT ORDER
PENDING ARBITRATION WILL HAVE THE ATTOR­
NEY FEES JUDGMENT OF $2,500.00 FROM THE
PETITIONER TO THE RESPONDENT. THE COURT
IS NOT ORDERING ANY DEVIATION AT THIS
TIME. CHILD SUPPORT WILL BE STARTING MAY
2020 AND WILL BE IN TWO PAYMENTS WITH THE
FIRST HALF TO BE PAID BY THE 5TH OF THE
MONTH AND THE SECOND HALF TO BE PAID BY
THE 20TH OF THE MONTH. THE COURT ADOPTS
THE END DATE OF SUPPORT THAT IS UNTIL THE
CHILD TURNS 18 OR IS NO LONGER ENROLLED
IN HIGH SCHOOL, WHICHEVER HAPPENS LAST.
ON A TEMPORARY BASIS, THE COURT ORDERS
POST-SECONDARY SUPPORT AS PROPOSED SUB­
JECT TO ARBITRATION. THE COURT ADOPTS
THE OTHER PARAGRAPHS PROPOSED AS THE
COURT FINDS THEY ARE EQUITABLE AND AP­
PROPRIATE.

32a
THE SUPREME COURT OF WASHINGTON
In re the Marriage of
JAMES ALAN CLARK,
Petitioner,

ORDER

) (Filed Jun. 3, 2020)

v.
WENDY KRISTINE CLARK,
Respondent.

No. 98172-8

)
)
)
)
)
)
)

Court of Appeals
No. 79424-8-1

Department II of the Court, composed of Chief
Justice Stephens and Justices Madsen, Gonzalez, Yu,
and Whitener, considered at its June 2, 2020, Motion
Calendar whether review should be granted pursuant
to RAP 13.4(b) and unanimously agreed that the fol­
lowing order be entered.
IT IS ORDERED:
That the motion to amend the petition for review
is granted. The amended petition for review is denied.
DATED at Olympia, Washington, this 3rd day of
June, 2020.
For the Court
/s/ [Illegible] C. J.
CHIEF JUSTICE

33a
No. 79424-8-1
IN THE SUPREME COURT
OF THE STATE OF WASHINGTON
JAMES ALAN CLARK,
Appellant,
v.
WENDY KRISTINE CLARK,
Respondent.
PETITION FOR REVIEW
James Alan Clark, Pro Se
3493 111th Drive NE
Lake Stevens, WA 98258
(425) 609-3660
TABLE OF CONTENTS
A.

IDENTITY OF PETITIONER.....................

1

C.

ISSUES PRESENTED FOR REVIEW.......

1

D.

STATEMENT OF THE CASE........................

2

E.

ARGUMENT WHY REVIEW SHOULD BE
GRANTED........................................................

5

1.

It should be considered “obvious on the
record” that the basic support obliga­
tion for children with shared 50/50
residential custody schedules are

34a

2.

3.

incurred approximately equally be­
tween each parent’s household.............

7

It should be considered “unmistakable,
evident, or indisputable” that a denial
of residential credit for a 50/50 residen­
tial shared custody homes plan results
in the most restrictive child support or­
der?..............................................................

8

It should be considered “unmistakable,
evident, or indisputable” that the de­
fault denial of residential credit due to
RCW 26.19.075(l)(d) orders the most
restrictive child support order and thus
violates a parent’s constitutional prop­
erty and liberty rights when a least re­
strictive (full residential credit) or
narrowly tailored (partial residential
credit) child support order would pro­
vide the receiving household with
enough resources?....................................

9

4.

The lack of an Attachment for Residen­
tial Schedule Adjustment is a proce­
dural due process constitutional
violation for 50/50 and other signifi­
cantly shared households........................ 11

5.

A mere difference in income between
parents, no matter how large, does not
provide a sufficient reason to refuse a
residential credit deviation to 50/50
12
families?.....................................................

6.

The vagueness doctrine applies to the
denial of residential credit due to an un­
quantified difference in incomes?......... 13

35a
7. A denial of residential credit does not
equally protect the children when $0 is
apportioned to a 50/50 custodial par­
ent’s household?........................................ 14
8.

The pro se appellant’s constitutional ar­
guments should be considered even
though not all RAP requirements were
strictly adhered to?................................... 15

F.

CONCLUSION................................................

16

G.

APPENDIX.......................................................

18

APPENDIX A - “YES, VIRGINIA, THE CON­
STITUTION APPLIES IN FAMILY COURT,
TOO - COMMON CONSTITUTIONAL ISSUES
IN FAMILY LAW”.........................................................

18

TABLE OF AUTHORITIES
Cases
B. Platsky v. CIA, 953 F.2d 25, 26 28 (2nd Cir.
1991)........................................................................

16

Boag v. MacDougall, 545 US 360 (1982)..............

15

Haines v. Kerner, 404 U.S. 519 (1972)...................

15

In re Marriage of Holmes, 128 Wn. App. 727,117
P.3d 370 (2005)....................................................... 12, 13
Maty v. Grasselli Chemical Co., 303 U.S. 197
(1938).......................................................................

16

Monongabela Nav. Co. u. United States, 148 U.S.
312, 325 (1893).......................................................

17

Puckett v. Cox 456 F2d 233 (1972 Sixth Circuit
USCA)......................................................................

15

36a
Troxel v. Granville, 530 U.S. 57, 65 (2000)........

11

Washington v. Glucksberg, 521 U.S. 702 (1997)

10

Statutes
RCW 26.19.001........

7

RCW 26.19.020........

9, 14

RCW 26.19.075(l)(d)

10

Regulations
45 CFR §304.10-304.50

7

Other Authorities
2011 Child Support Schedule Workgroup Final
Report......................................................................

6,8

2015 Child Support Schedule Workgroup Final
Report......................................................................

6,8

2019 Child Support Schedule Workgroup Final
Report......................................................................

6

[1] A.

IDENTITY OF PETITIONER

James Clark, appellant below and father of the
children at issue in this case, asks this Court to accept
review of the Court of Appeals’ decision affirming the
modification petition denial. See Part B.
B. COURT OF APPEALS DECISION
Petitioner James Clark, seeks review of the Court
Appeals’ decision entered on January 13, 2020,

37a
affirming the trial court’s order to deny appellant’s
modification petition to award residential credit and
reverse all legal fees to appellant based on financial
circumstances. A copy of the decision is attached.

C. ISSUES PRESENTED FOR REVIEW
1. Should it be considered “obvious on the record”
that the basic support obligation for children with
shared 50/50 residential custody schedules are in­
curred approximately equally between each parent’s
household?
2. Should it be considered “unmistakable, evi­
dent, or indisputable” that a denial of residential credit
for a 50/50 residential shared custody homes plan re­
sults in the most restrictive child support order?
3. Should it be considered “unmistakable, evi­
dent, or [2] indisputable” that the default denial of res­
idential credit due to RCW 26.19.075(l)(d) orders the
most restrictive child support order and thus violates
a parent’s constitutional property and liberty rights
when a least restrictive (full residential credit) or nar­
rowly tailored (partial residential credit) child support
order would provide the receiving household with
enough resources?
4. Does the lack of an Attachment for Residential
Schedule Adjustment for 50/50 and other significantly
shared custody families represent a procedural due
process constitutional violation?

38a
5. Does the mere difference in income between
parents, no matter how large, provide a sufficient rea­
son to refuse a residential credit deviation to 50/50
families?
6. Does the vagueness doctrine apply to denying
residential credit due to a “difference in incomes” or
“insufficient resources”?
7. Does a denial of residential credit equally pro­
tect the children when $0 is apportioned to a 50/50 cus­
todial parent’s household?
8. Should the pro se appellant’s constitutional
arguments be considered even though not all RAP re­
quirements were strictly adhered to?
D. STATEMENT OF THE CASE
James and Wendy divorced after eleven in years in
2011 with a [3] daughter (8) and son (6). James used a
collaborative law firm and sought a 50/50 plan with
residential credit. The court made Wendy the primary
custodian and awarded her the family home with a
$4,000 per month budget while she transitioned back
into the workforce after 6 years at home. The 50/50
parenting plan was only reached after a year of expen­
sive litigation and mediation in which the parents
agreed to share equal rights as full custodial parents
with a 50/50 shared residential schedule.
When spousal maintenance ended in January
2012, James sought the previously agreed to child sup­
port review of Wendy’s new income and circumstances

39a
to receive an award of residential credit. The court im­
puted Wendy’s income to be $2,333 on March 5, 2012
after a motion to reconsider in which Wendy “contends
she is as employed as can be.” Additionally, “The court
will order a deviation for residential credit based on
the economic status of both parties.”
In July 2014, Wendy’s average monthly income
was over $4,000 per month. James sought a residential
credit per a modification petition. Even though
Wendy’s income was more than 100% of the $4,000 per
month household budget that the court had calculated
in May 2010, the court refused to deviate and not be­
cause Wendy had insufficient resources but rather be­
cause of the income difference between the two MBA
educated parents
[4] In July 2017, James presented a modification
petition that would have committed him to paying a
total of $3,054 in child support each month. The first
$2,054 (using the court’s final income calculations)
would be his proportional share of the basic support
obligation per the WSCSS worksheets. James’ pro­
posed child support order included an additional
$1,000 per month cash payment directly into an edu­
cational savings account to fully fund the children’s
University of Washington (or similarly costing) under­
graduate college educations. The children’s best inter­
est of a fully funded $26K annual undergraduate
education without any student loans depended upon
the court ordering the least restrictive child support
order that included a residential credit to James. Of
the $1,440 in financial savings to James between the

40a
most restrictive and least restrictive child support or­
ders, $1,000 (70% of $1,440) would be passed directly
to the children’s education. The court refused, de­
scribed James’ attempt a cynical and transparent at­
tempt to further his own financial interests, and
reversed 100% of Wendy’s legal fees onto James. The
Court of Appeals affirmed the trial court’s ruling in
June 2018 and also reversed all of Wendy’s legal fees
onto James.
In July 2018, James sought a modification due to
his lower salary after a layoff from Northrop Grum­
man in which no other job with the company was of­
fered and he only received layoff paperwork. James’s
[5] hours and salary were cut to 20 hours per week re­
sulting in an $85K annual salary with his new em­
ployer. James documented in his modification petition
declarations that he was hired on by Northrop Grum­
man in 2005 on the same 20 hour per week work from
home schedule earning a $78K salary. James 100%
supported the family on that schedule and salary from
2005-2008 in what is now Wendy’s home. The trial
court refused to deviate, reversed all of Wendy’s legal
fees onto James, and found that James was engaged in
vexatious litigation. The appellate court affirmed the
trial court’s ruling and reversed all of Wendy’s legal
fees onto James.
James seeks review in this Court.

41a
E. ARGUMENT WHY REVIEW SHOULD BE
GRANTED
The State of Washington routinely violates par­
ents’ constitutional property and liberty rights in the
51.6% majority of all custody cases statewide when
courts systemically deny residential credit to 50/50
and other significantly shared custody families. There
is no fair process when there is no approved method of
calculation for apportioning the total amount of child
support owed in shared custody arrangements. It is
manifest error for the court to maintain that each par­
ent is paying their presumptive support obligations as
calculated by the WSCSS worksheets [6] when resi­
dential credit is denied in 50/50 and other significantly
shared residential schedules.
The Washington State Child Support Schedule
Workgroups have repeatedly stated “on the record” in
their 2011, 2015, and 2019 reports that children’s res­
idential expenses are shared approximately equally
between parents with equal residential schedules.
Thus, the apportionment of all support to one house­
hold ($2,880 in this case for two children) and $0 to the
other household when each household should be appor­
tioned $1,440, creates a significant disparity in the
amount of support available for the children in each
household and does not equally protect the children. A
denial of residential credit places more than the entire
combined monthly net income calculation of child sup­
port obligation on one parent while relieving the other
parent of their financial support obligation, and does
not meet the legislature’s intention of equitably

42a
apportioning the child support obligation between both
parents, RCW 26.19.001.
Even if a receiving household has a larger net in­
come than the court reviewed household budget, the
court then relies on the ambiguous and unconstitution­
ally vague “difference in income” to deny residential
credit and impose the most restrictive child support or­
der.
The Supreme Court should use this case to order
the Administrative Office of the Courts to create an At­
tachment for [7] Residential Schedule Adjustment to
provide fair process and to ensure child support orders
are least restrictive or narrowly tailored to remain in
constitutional compliance with the State’s Title IV-D
child support plan and 45 CFR §304.10-304.50.
1.

It should be considered “obvious on the
record” that the basic support obliga­
tion for children with shared 50/50 res­
idential custody schedules are incurred
approximately equally between each
parent’s household.

The Washington Child Support Schedule
Workgroups have extensively documented that ex­
penses in 50/50 shared residential custody households
are shared approximately equally between parents.
The 2011 Workgroup recommended in its final report
that “There should be a residential schedule credit, not
just a deviation” and included a Parenting Time Credit
Worksheet and Parenting Time Table to credit 50/50

43a
homes with the 50% of duplicated expenses (Appendix
XI). The 2015 Workgroup focused exclusively on one is­
sue in their 2015 Final Report: “a residential schedule
deviation based on the time that the children spend
with the paying parent.”
It should be obvious that when both parents are
providing their children 21 plates of food weekly (aver­
aged over a two week 3-4-4-3 residential schedule),
they both have similar expenses. All the food and ex­
penses James pays for the two children during their
50% residential time [8] with him relieves Wendy of
those same expenses. Residential credit is how the to­
tal support obligation gets fairly divided between the
two homes that actually incur those expenses in the
care of the children.
2.

It should be considered “unmistakable,
evident, or indisputable” that a denial of
residential credit for a 50/50 residential
shared custody homes plan results in the
most restrictive child support order?

A denial of residential credit to a 50/50 shared cus­
tody household results in the most restrictive child
support order as illustrated in Appendix D of the Ap­
pellant’s Brief. In this case, James is paying Wendy a
total of 72% ($2,054) of the total basic support obliga­
tion as calculated by their combined monthly incomes
while he incurs an additional 50% of the basic support
obligation out of pocket during the children’s 50% res­
idential schedule with him. It should be clear that

44a
James pays 122% of the maximum of the RCW
26.19.020 economic support tables even though his
monthly net income since July 2018 has been $5,000
monthly and would be no more than $7,000-$9,000 de­
pending on how much additional income the court
chooses to impute. James pays all $1,440 of the chil­
dren’s expenses at his home out of pocket, pays all
$1,440 of the children’s expenses at Wendy’s home, and
then provides another $614 to Wendy as part of the
$2,054 transfer payment. The most restrictive order
has James paying $3,494 monthly towards the $2,880
CMNI basic support [9] obligation.
Compare that to the least restrictive order in that
James pays Wendy 22% ($614) of the total basic sup­
port obligation after being credited for the 50%
($1,440) of the children’s expenses incurred at his
household. Residential credit results in James paying
a total of $2,054 as calculated per the WSCSS work­
sheets with Wendy required to pay $826 monthly to be
provided $1,440 for her household’s 50% of expenses.
Only through a residential credit deviation is the
least restrictive child support order entered in which
both parents pay their proportional net income share
of the basic support obligation as calculated on the
WSCSS worksheets. It is manifest error for the
court to maintain that each parent is paying
their presumptive support obligations as calcu­
lated by the WSCSS worksheets when residential
credit is denied in 50/50 and other significantly
shared residential schedules.

45a
3.

It should be considered “unmistakable,
evident, or indisputable” that the default
denial of residential credit due to RCW
26.19.075(l)(d) orders the most restric­
tive child support order and thus vio­
lates a parent’s constitutional property
and liberty rights when a least restric­
tive (full residential credit) or narrowly
tailored (partial residential credit) child
support order would provide the receiv­
ing household with enough resources?

Any state practice that interferes with a parent’s
fundamental Constitutional rights is subject to a tri­
partite strict scrutiny test. This [10] means it survives
Constitutional scrutiny only if it is narrowly tailored
to serve a compelling state interest and uses the least
restrictive means available to do so. See, e.g., Washing­
ton v. Glucksberg, 521 US. 702 (1997)
In this case, Wendy’s approximately $4,300
monthly net income plus an additional $2,054 in child
support, is over $6,350 - far over the $4,000 monthly
budget the court awarded her as full support for the
house in 2010 and more than every financial declara­
tion budget she has ever submitted over the past 10
years. Even if the standard is to provide 100% of house­
hold expenses and debt payments to ensure enough re­
sources for the household receiving support, the court
has chosen since 2014 to not narrowly tailor child sup­
port awards to provide just enough resources for the
household receiving support but not more.

46a
When the courts do not order the least restrictive
or a narrowly tailored child support order, they funda­
mentally violate the obligor parent’s constitutional
property rights and liberty rights. Excessive child sup­
port orders impact the obligor parent’s right’s to estab­
lish a home and bring up children and to control the
education of their own. Excessive child support orders
impact substantive due process rights including obli­
gor’s right, coupled with the high duty, to recognize and
prepare his children for additional obligations. The
court’s denial in July 2017 of [11] residential credit
means $0 is saved for the children’s educations instead
of $32,000 as of February 2020 as father proposed in
the children’s best interests.
4.

The lack of an Attachment for Residen­
tial Schedule Adjustment is a procedural
due process constitutional violation for
50/50 and other significantly shared
households.

The U.S. Supreme Court observed in Troxel v.
Granville, 530 U.S. 57, 65 (2000) that:
The Fourteenth Amendment provides
that no State shall “deprive any person of life,
liberty, or property, without due process of
law.” We have long recognized that the
Amendment’s Due Process Clause, like its
Fifth Amendment counterpart, “guarantees
more than fair process.”
There is no fair process when there is absolutely
no process, method, or worksheet attachment to fairly

47a
apportion child support in shared residential custody
households. When the total child support obligation is
100% apportioned to the lower income parent in 87.6%
of all significantly shared (more than 25% with both
parents) residential custody cases, which is also a
51.6% majority of all custody cases, a significant con­
stitutional due process issue exists that impacts the
majority of all family law cases involving custody in
Washington state.
[12] 5. A mere difference in income between
parents, no matter how large, does not
provide a sufficient reason to refuse a
residential credit deviation to 50/50 fam­
ilies?
“Mere difference in income, no matter how large,
is not sufficient basis for such a deviation.” In re Mar­
riage ofHolmes, 128 Wn.App. 727,117 P 3d 370 (2005).
In Holmes, the primary custodial father with a $125
million in assets and $620,000 monthly net income was
found to spend $636 monthly for support of his son in
his household ($2,460 total support minus $1,438 for
private school and $386 for health costs). The noncus­
todial mother had $1 million in assets, $2,051 of
monthly net investment income, imputed income of an­
other $2,051, and sought approximately $7,000 per
month from the father (after subtracting private school
expenses) to fund what father called “an excessively in­
dulgent lifestyle” and “fund disruptive legislation”.

48a
In the Holmes case, the father’s income was 151
times greater than the mother’s and father’s net assets
were 125 times larger. In spite of this difference in
wealth, he was not ordered to maintain a $7,000 per
month child support payment that provides 11 times
the resources at mother’s non-custodial residence than
the $636 spent at father’s custodial residence.
In this case, apportioning $2,880 of support to
Wendy via the most restrictive order just because
James earns more is not a sufficient reason to deny a
residential credit deviation, especially when Wendy’s
net assets are [13] considerably more than father’s per
their December 2019 financial declarations. By net
worth, James is now the economically disadvantaged
parent.
6.

The vagueness doctrine applies to the
denial of residential credit due to an un­
quantified difference in incomes?

The U.S. Supreme Court observed in Troxel v.
Granville that:
The Fourteenth Amendment provides that no
State shall “deprive any person of life, liberty,
or property, without due process of law.” We
have long recognized that the Amendment’s
Due Process Clause, like its Fifth Amendment
counterpart, “guarantees more than fair pro­
cess.”
Child support should be apportioned according to
the economic tables of RCW 26.19.020 in which both

49a
parents have a proportional 20+% of their income cal­
culated as support. Yet courts are allowed to signifi­
cantly deviate from that WSCSS worksheet
calculations by denying the least restrictive child sup­
port order and imposing the most restrictive child sup­
port order based on the mere “difference in incomes”.
In the child support statutes, there is no published
standard on what constitutes a significant income dif­
ference. Looking again at the Holmes case above, the
father earns $620,000 monthly and the mother $2,051
yet the court provided that the custodial father should
not have to pay the noncustodial mother more because
“mere difference in income, no matter how large, in not
sufficient basis for such a deviation.”
[14] Compare that to a 50/50 shared residential
custody case in which the economic situations are com­
pletely reversed through child support so that the
mother in 2014,2017, and 2018 ended up with a higher
net income after the child support transfer payment
than father did. Wendy now has a higher net worth
than James even though he has consistently worked
without any breaks since 2005 and she has been un­
employed, underemployed, working part time, or start­
ing her own business for eight of the past ten years.
Even when the household receiving support
(Wendy) has a larger net income ($4,300 monthly) than
the court awarded household budget ($4,000 monthly),
the court then relies on the ambiguous and unconsti­
tutionally vague “difference in income” to deny resi­
dential credit and impose the most restrictive and one

50a
sided child support order. Quoting from U.S. Supreme
Court Justice Gorsuch, “It leaves the people to guess
what the law demands - and leaves judges to make it
up” and “No amount of staring at the statute’s text,
structure, or history will yield a clue” as to when child
support will be evenly apportioned between house­
holds in the least restrictive order (residential credit)
or when all support goes to one parent in the most re­
strictive default case for 87.6% of all shared parenting
cases in Washington State.
7.

A denial of residential credit does not
equally protect the [15] children when $0
is apportioned to a 50/50 custodial par­
ent’s household?

The $0 apportionment of support to James’ house­
hold has provided absolutely zero protection to his
household since support payments began in June 2010.
The full $2,880 apportioned to Wendy’s household pro­
vides all the protection of the maximum support obli­
gation for two children that she only has half the time.
Wendy has never actually had to show how $2,880
monthly is spent on the basic support obligation for the
children. Yet her $4,000 household monthly budget is
supported 72% through a $2,880 of child support ap­
portionment for two children in public school and no
health issues that she has half the time.

51a
8.

The pro se appellant’s constitutional ar­
guments should be considered even
though not all RAP requirements were
strictly adhered to?

James, the pro se appellant, without assistance of
counsel, unschooled in law and requesting the court to
accept direction from Haines v. Kerner, 404 U.S. 519
(1972), Boag v. MacDougall, 545 US 360 (1982), Puck­
ett v. Cox 456 F2d 233 (1972 Sixth Circuit USCA),
wherein the court has directed those who are un­
schooled in law making pleadings shall have the court
look to the substance of the pleadings rather than the
form. Pro se pleadings are to be considered without re­
gard to technicality; pro se litigants’ pleadings are not
to be held to the same high standards of [16] perfection
as lawyers. Maty v. Grasselli Chemical Co., 303 U.S.
197 (1938), B. Platsky v. CIA, 953 F.2d 25, 26 28 (2nd
Cir. 1991), “Court errs if court dismisses pro se litigant
without instruction of how pleadings are deficient and
how to repair pleadings.”
F.

Conclusion

While James is attempting to address the Court of
Appeals ruling through this petition to reframe his ar­
guments in terms of constitutional magnitude and
manifest error, his pro se arguments are based on le­
gitimate constitutional issues in the Washington fam­
ily law courts. Approximately 12,000 Washington state

52a
families divorce every year with kids1 and are im­
pacted by the systemic constitutional violations. Deny­
ing a review of this case to address these violations
would be an abuse of discretion.
Even if the Supreme Court cannot order the Ad­
ministrative Office of the Courts to accept pro se liti­
gant’s Attachment
for
Residential
Schedule
Adjustment or to publish their own version, it can ad­
dress the constitutional violations that occur when res­
idential credit is denied and the most restrictive child
support orders are entered that do not pass constitu­
tional muster.
[17] While the Washington family courts may have
the best of intentions when ordering the largest and
most restrictive child support orders, the fact is these
orders are unconstitutional if a least restrictive or nar­
rowly tailored order would provide the receiving
household with sufficient resources. Unconstitutional
orders are ineligible to receive Title IV-D federal re­
imbursement funding by the state. Thus the Wash­
ington State Supreme Court has a constitutional duty
to guide the courts to create constitutional orders. As
the U.S. Supreme Court issued long ago, “Illegitimate
and unconstitutional practices get their first footing
. . . by silent approaches and slight deviations from le­
gal modes of procedure. ... It is the duty of courts to
be watchful for the constitutional rights of the citizen,
and against any stealthy encroachment thereon.”
1 https://www.doh.wa.gov/DataandStatisticalReports/Health
Statistics/Divorce/DivorceTablesbyYear

53a
Monongabela Nay. Co. v. United States, 148 US. 312,
325 (1893).
DATED this 12th day of February, 2020.
Respectfully submitted,
/s/ James Alan Clark_______
Signature
James Alan Clark, Pro Se

APPENDIX A - “Yes, Virginia, the
Constitution Applies in Family Court, Too Common Constitutional Issues in Family Law”
Yes, Virginia, the Constitution Applies in Family
Court, Too
Common Constitutional Issues in Family Law1
by David Domina, James Bocott,
and Jeremy Hopkins
In the last few years, there has been growing
awareness of the Constitutional issues that arise in
family law cases. According to Yale Law Professor
Douglas NeJaime:
Many of the leading constitutional issues of
our day implicate family law matters. Modern
substantive due process is replete with ques­
tions of family law. Griswold v. Connecticut,
Eisenstadt v. Baird, Roe v. Wade, Planned
Parenthood v. Casey, and Lawrence v. Texas
raise issues of family formation, intimate
1 © 2018 Midwest Family Law Association

54a
relationships, and reproductive decision mak­
ing. Loving v. Virginia, Zablocki v. Redhail,
and Turner v. Safley address the contours of
marriage. Moore v. City of East Cleveland pro­
tects the extended family. Stanley v. Illinois,
Lehr v. Robertson, and Michael H. v. Gerald D.
consider the rights of unmarried fathers.
Troxel v. Granville protects a parent’s chil­
drearing decisions. Modern equal protection
law, too, features a significant number of fam­
ily law issues. A string of cases beginning in
the late 1960s extends rights to nonmarital
parent-child relationships. Leading sex equal­
ity decisions dating back to the 1970s render
rights and responsibilities regarding mar­
riage and childrearing formally gender neu­
tral. Most recently, decisions on the rights of
same sex couples to marry - namely, United
States v. Windsor and Obergefell v. Hodges recognize the families formed by gays and les­
bians on grounds of equal protection and due
process.2
Oddly, judges and practitioners often overlook
basic Constitutional requirements in traditional fam­
ily law cases. As one commentator observed, judges
regularly issue orders in these cases that would never
pass Constitutional muster in other contexts:
Under the amorphous “best interests of the
child” standard, judges have ordered parents
to bring their children to church, avoid
2 Douglas NeJamie, “The Family’s Constitution,” 32 Consti­
tutional Commentary 413 (2017), Yale Law School Public Law Re­
search Paper No. 621 (footnotes omitted).

55a
criticizing ex-spouses or their religious beliefs,
refrain from bringing intimate partners near
the children, and even communicate feelings
of love toward their ex-spouses. Although
some scholarship has addressed judges’ con­
sideration of parents’ religious beliefs or sex­
ual preferences in granting custody, the
constitutionality of family court orders struc­
turing family interaction and crafting rules of
parental behavior . . . “has largely escaped the
notice of all but a few First Amendment schol­
ars” and “survives partly because of the little
attention paid to family law proceedings.”
Thus, family law courtrooms have the poten­
tial to become constitutional “twilight zones”
in which judges adjudicating the responsibili­
ties and obligations of the most basic unit of
American society illegitimately violate par­
ents’ constitutional rights in the name of chil­
dren’s best interests.3
One of America’s foremost First Amendment ex­
perts, Eugene Volokh, observed that judges regularly
rely on the “best interests of the child” standard to
make custody decisions based on parents’ speech and
beliefs, and sometimes to issue orders restricting their
speech:
The “best interests of the child” test - the
normal rule applied in custody disputes be­
tween two parents - leaves family court
judges ample room to consider a parent’s
3 Kelly Kanavy, “The State and the ‘Psycho Ex-Wife’: Parents’
Rights, Children’s Interests, and the First Amendment,” 161 U.
Penn. L. Rev. 1081 (2013) (footnotes omitted).

56a
ideology. Parents have had their rights limited
or denied partly based on their advocacy of
atheism, racism, homosexuality, adultery,
nonmarital sex, Communism, Nazism, paci­
fism and disrespect for the flag, fundamental­
ism, polygamy, and religions that make it
hard for children to “fit in the western way of
life in this society.”
Courts have also penalized or enjoined speech
that expressly or implicitly criticizes the other
parent, even when the speech has a broader
ideological dimension. One parent, for in­
stance, was ordered to “make sure that there
is nothing in the religious upbringing or
teaching that the minor child is exposed to
that can be considered homophobic,” because
the other parent was homosexual. Another
mother was stripped of custody partly because
she accurately told her 12-year-old daughter
that her ex-husband, who had raised the
daughter from birth, wasn’t in fact the girl’s
biological father.
Courts have also restricted a parent’s reli­
gious speech when such speech was seen as
inconsistent with the religious education
that the custodial parent was providing. The
cases generally rest on the theory (sometimes
pure speculation, sometimes based on some
evidence in the record) that the children will
be made confused and unhappy by the

57a
contradictory teachings, and will be less likely
to take their parents’ authority seriously.4
Prof. Volokh argues these restrictions are gener­
ally unconstitutional, except when they’re narrowly fo­
cused on preventing one parent from undermining the
child’s relationship with the other parent.5
Constitutional Overview
Family law cases implicate a number of Constitu­
tional doctrines, including the First Amendment and
the Establishment Clause. They also implicate sub­
stantive and procedural due process and equal protec­
tion. These are the focus of this article.6

4 Eugene Volokh, “Parent-Child Speech and Child Custody
Speech Restrictions,” 81 NYU L. Rev. 631 (2006).
5 Id.
6 While beyond the scope of this article, it is worth noting
that family law proceedings and decisions are also subject to stat­
utory civil rights laws, including the Americans With Disabilities
Act (“ADA”). According to the U.S. Department of Health and Hu­
man Services and U.S. Department of Justice, “[p]arents who are
blind or deaf also report significant discrimination in the custody
process, as do parents with other physical disabilities.” Moreover,
the frequency of ADA complaints in this area is rising. See U.S.
Department of Health and Human Services, Office for Civil
Rights Administration for Children and Families and U.S. De­
partment of Justice, Civil Rights Division, “Protecting the Rights
of Parents and Prospective Parents with Disabilities: Technical
Assistance for State and Local Child Welfare Agencies and Courts
under Title II of the Americans with Disabilities Act and Section
504 of the Rehabilitation Act” (August 2015), available at
https://www. ada.gov/doj_hhs_ta/child_welfare_ta.html.

58a
Substantive Due Process
The U.S. Supreme Court observed in Troxel v.
Granville:
The Fourteenth Amendment provides that no
State shall “deprive any person of life, liberty,
or property, without due process of law.” We
have long recognized that the Amendment’s
Due Process Clause, like its Fifth Amendment
counterpart, “guarantees more than fair pro­
cess.” The Clause also includes a substantive
component that “provides heightened protec­
tion against government interference with
certain fundamental rights and liberty inter­
ests.”
The liberty interest at issue in this case - the
interest of parents in the care, custody, and
control of their children - is perhaps the old­
est of the fundamental liberty interests recog­
nized by this Court.7
Troxel rejected a trial order granting parenting
time to a child’s grandparents. The court held the order
“was an unconstitutional infringement on [the
7 Troxel v. Granville, 530 U.S. 57, 65 (2000) (internal cita­
tions omitted). See also Stanley v. Illinois, 405 U.S. 645, 651
(1972) (“The private interest here, that of a man in the children
he has sired and raised, undeniably warrants deference and, ab­
sent a powerful countervailing interest, protection. It is plain that
the interest of a parent in the companionship, care, custody, and
management of his or her children ‘comets] to this Court with a
momentum for respect lacking when appeal is made to liberties
which derive merely from shifting economic arrangements,
quoting Kovacs v. Cooper, 336 U. S. 77, 95 (1949) (Frankfurter, J.,
concurring)).
1 >?

59a
parent’s] fundamental right to make decisions con­
cerning the care, custody, and control of her two daugh­
ters” because the trial court “failed to accord the
determination of [the parent], a fit custodial parent,
any material weight.”
Any state practice that interferes with a parent’s
fundamental Constitutional rights is subject to a tri­
partite strict scrutiny test. This means it survives Con­
stitutional scrutiny only if it is narrowly tailored to
serve a compelling state interest and uses the least re­
strictive means available to do so.8
The Troxel doctrine has expanded. In Richmond v.
Case, for example, the Nebraska Supreme Court held:
[B]oth parents and their children have a rec­
ognized unique and legal interest in, and a
constitutionally protected right to, compan­
ionship. In other words, the substantive due
process right to family integrity protects not
only the parent’s right to the companionship,
care, custody, and management of his or her
child, but also protects the child’s reciprocal
right to be raised and nurtured by [his or her]
biological parent. It is clear, therefore, that
both parents and their children have cogniza­
ble substantive due process rights to the par­
ent-child relationship.9
In a later case, the Nebraska court held “When an
unmarried father has established familial ties with his
See, e.g., Washington v. Glucksberg, 521 U.S. 702 (1997).
Richmond v. Case, 275 Neb. 757 (2008).

60a
biological child and has provided support his relation­
ship acquires substantial constitutional protection. ”10
Nebraska is not alone in this area. In L.F. u. Breit,
for example, the Virginia Supreme Court held that
“[i]n light of this demonstrated commitment, we con­
clude that the Due Process Clause protects [an unmar­
ried father’s] fundamental right to make decisions
concerning [the child’s] care, custody and control, de­
spite his status as an unmarried [sperm] donor.”11
Judicial decisions that infringe on parents’ care,
custody and control of their children are unconstitu­
tional unless they are narrowly tailored and apply the
least restrictive means available. Under strict scrutiny
analysis, appellate standards that give trial judges in­
dependent responsibility to determine custody and
parenting time, even over the joint agreement of the
child’s parents,12 do not pass constitutional muster.13

10 Michael E., et al. v. State, 286 Neb. 532 (2013).
11 L.F. v. Breit, 285 Va. 163 (2013).
12 See, e.g., Zahl v. Zahl, 273 Neb. 1043 (2007); Becher v.
Becher, 299 Neb. 206, 217 (2018) (“a trial court has an independ­
ent responsibility to determine questions of custody and visitation
of minor children according to their best interests, which respon­
sibility cannot be controlled by an agreement or stipulation of the
parties.”).
13 In addition to the substantive due process right that each
parent and child has to the parent-child relationship, the First
Amendment’s right to association likewise protects the parentchild relationship.

61a
Procedural Due Process
The Due Process Clause requires that parties have
fair notice of what a law requires of them. In Linn v.
Linn, the Nebraska Supreme Court considered the
constitutionality of a statute that authorized the ter­
mination of parental rights in a divorce if the court
found termination was in the “best interests and wel­
fare of the children.”14
Linn held laws must provide “standards which the
average intelligent person should be able to under­
stand and by which he or she can regulate his or her
conduct.” In Linn, only the “best interests and welfare
of the children” standard governed. This “standard” in­
cludes no provisions “sufficiently specific to apprise the
parents of why the state found it necessary to termi­
nate parental rights; there is no language conveying a
warning as to prohibited conduct and no standards by
which the parents could ‘regulate his or her conduct. > 5?
The Linn court held the law, “being vague and lacking
in adequate and understandable standards of conduct
to which parents should conform so as not to risk the
termination of parental rights, violates the due process
requirements of the Fourteenth Amendment . . . , and
is therefore unconstitutional and void.”15
This conclusion is in step with prevailing jurispru­
dence and academic thought. Many commentators over
the last 50 years have observed the “best interests”
standard, if it can be called a standard at all, does not
14 Linn v. Linn, 205 Neb. 218 (1980).
15 Id.

62a
provide any meaningful guidance. According to a brief
that was submitted to the U.S. Supreme Court in
Troxel:
The best interests test has long been the sub­
ject of academic as well as judicial criticism
for being indeterminate, providing little guid­
ance on how to weigh the different needs of
individual children, especially as they change
over time; Robert H. Mnookin, Child-Custody
Adjudication: Judicial Functions in the Face
of Indeterminacy, 39 Law & Contemp. Probs.,
226, 257 (Summer 1975). Best interests oper­
ates as “an empty vessel into which adult per­
ceptions and prejudices are poured.” Hillary
Rodham, Children Under the Law, 43 Harv.
Ed. Rev. 487, 513 (1973).4
4 Mary Ann Glendon, Fixed Rules and
Discretion in Contemporary Family Law
and Succession Law, 60 TULANE L. REV.
1365, 1181 (1986) (The “best interests”
standard is “a prime example of the futil­
ity of attempting to achieve perfect, indi­
vidualized justice by reposing discretion
in a judge. Its vagueness provides maxi­
mum incentive to those who are inclined
to wrangle over custody, and it asks the
judge to do what is almost impossible:
evaluate the child-caring capacities of a
mother and a father at a time when fam­
ily relations are apt to be most distorted
by the stress of separation and the di­
vorce process itself.”); Gary Crippen,
Stumbling Beyond the Best Interests of
the Child, 75 MINN. L. REV. 427, 499

63a
(1990); Annette R. Appell and Bruce A.
Boyer, Parental Rights v. Best Interests, 2
DUKE J. GENDER LAW & POL. 63
(1995) (analysis of cultural, class, reli­
gious, ethnic, and racial biases that per­
vade totally discretionary use of “best
interests”)16
The U.S. Supreme Court seems to be taking a
greater interest in the vagueness doctrine. Earlier this
year, Justice Gorsuch cast the deciding vote against
the Trump administration in an immigration case be­
cause the statute in question was unconstitutionally
vague. According to Justice Gorsuch:
“The implacable fact is that this isn’t your
everyday ambiguous statute. It leaves the
people to guess about what the law demands
— and leaves judges to make it up. You cannot
discern answers to any of the questions this
law begets by resorting to the traditional can­
ons of statutory interpretation. No amount of

16 Brief ofAmicus Curiae National Association of Counsel for
Children, submitted to the United States Supreme Court in
Troxel v Granville Case No 99-138 (Dec 10 1 999) See also, e.g.,
Erwin Chemerinsky, Defining the “Best InterestsConstitutional
Protections in Involuntary Adoptions, 18 J. Fam. L. 79 (1979) (dis­
cussing the “serious constitutional problems” in allowing adop­
tions based on the “vague standards and findings” contained in
the best interests standard and attempting to “define ‘best inter­
ests’ so as to provide full protection of the parents’ constitutional
rights”).

64a
staring at the statute’s text, structure, or his­
tory will yield a clue.”17
It is worth noting the statute in Dimaya was con­
siderably more precise than the “best interests” test so
long used in child custody cases.
The vagueness of the “best interests” standard is
apparently not only from the plain language of the
standard itself but als from the broad range of out­
comes it produces. Surveys of child custody decisions,
including the Nebraska 2002-2012 Custody Court File
Research Study, show similar facts often produce
vastly different outcomes.18 Facts that might result in
joint legal custody and 50-50 parenting time in Omaha
will likely result i sole legal custody and 80-20 parent­
ing time in North Platte.19

(2018) (Gorsuch, J., con­
17 Sessions v. Dimaya, 584 U.S.
curring).
18 Nebraska State Court Administrator, “Nebraska 20022012 Custody Court File Research Study” (Dec. 31, 2013). See also,
e.g., Leading Women for Shared Parenting, “Full Analysis: North
Dakota Child Custody by Judge” in “Analysis of Child Custody
Determinations: State of North Dakota,” (Oct 2017) (“significant
variances in custody determinations exist between counties, judi­
cial districts and judges”). Available at https://staticl.square
space. com/static/5154a075e4b08f050dc20996/t/59ef20cfb7411ccab
433c3d4/1508843767027/LW4SP+North+Dakota+Child+Custody+
By+Judge+10232017 .pdf
19 These disparities injudicial practices also violate the Uni­
formity Clause of the Nebraska Constitution, which provides,
“The organization, jurisdiction, powers, proceedings, and practice
of all courts of the same class or grade, so far as regulated by law
and the force and effect of the proceedings, judgments and decrees

65a
These surveys show case outcomes often depend
more on the judge who hears the case than the law or
the facts of the case.20
Equal Protection
With respect to equal protection, surveys of child
custody cases show substantial gender disparities in
case outcomes According to the Nebraska 2002-2012
Custody Court Fil Research Study, for example, moth­
ers were five times more likely to receive sole or pri­
mary custody of their children than fathers.21
Many surveys of judges show conscious gender
bias in how they decide cases. “A study conducted in
2004 found that although the ‘tender years doctrine’
had been abolished man years earlier, a majority of In­
diana family court judges still supported it and decided
cases coming before them consistently with it. A survey
of such courts, severally, shall be uniform.” Neb. Const., Art. V19.
20 In addition, the vagueness of the “best interests” standard
may contribute to parental alienation. Amy J.L. Baker et al, “Best
Interest of the Child and Parental Alienation: A Survey of State
Statutes,” 61 J. Forensic Sciences 1011 (2016) (the best interests
factors in some state statutes include “elements relevant to pa­
rental alienation but lack specificity that could contribute to tre­
mendous variation in how these key concepts are operationalized
and utilized in custody decision making. In light of the knowledge
now available regarding the long-term negative consequences of
parental alienation on children, it is time for a coherent judicial
and legislative response to this problem.”).
21 Nebraska State Court Administrator, “Nebraska 20022012 Custody Court File Research Study” (Dec. 31, 2013).

66a
of judges in Alabama, Louisiana, Mississippi and Ten­
nessee found a clear preference among judges for ma­
ternal custody in general. ”22
This evidence suggests significant equal protec­
tion issue dwell within family law cases. Practitioners
must be prepare to identify and argue them. Under the
Equal Protectio Clause, gender classifications are sub­
ject to intermediate scrutiny, which means they must
serve important governmental objectives and use
means that are substantially related to the achieve­
ment of those objectives.23 As the U.S. Supreme Court
held in one of its rare family law cases, gender classifi­
cation “cannot be validated on the basis of the State’s
preference for an allocation of family responsibilities
under which the wife plays a dependent role. No longer
is the female destined solely for the home and the rear­
ing of the family, and only the male for the marketplace
and the world of ideas.”24
Practical Results of the Best Interests Standard
The “best interests” standard has produced per­
verse results. It often thrusts two, fit parents into a
cage fight, awarding custody - and the financial bene­
fits that come with it — to the parent who best destroys
22 “

What Judges Really Think About Fathers: Responses to
Court-Commissioned Judicial Bias Surveys,” 31 Transitions 4
(Nov. 2013) (footnotes omitted).
23 Orr v. Orr, 440 U.S. 268, 269 (1979).
24 Id. (holding a gender-based alimony statute unconstitu­
tional).

67a
the other. The system likewise incentivizes attorneys
to engage in conduct that is detrimental to the rela­
tionship of the child’s parents and harmful to the
child.25
Many family courts have devolved from courts of
law into arenas where attorneys too often fuel discord
and encourage parents to air their subjective — and of­
ten irrelevant - opinions about the other parent. Noth­
ing could be further from the actual “best interests” of
the child.
The “best interests” standard gives credence to a
warning the U.S. Supreme Court issued long ago. “Ille­
gitimate and unconstitutional practices get their first
footing ... by silent approaches and slight deviations
from legal modes of procedure. ... It is the duty of
courts to be watchful for the constitutional rights of the
citizen, and against any stealthy encroachments
thereon.”26
Courts following the “best interests” standard are
not malicious, but their well-intentioned actions are
nonetheless devastating to the children impacted by
their rulings. The unconstitutional acts produced by
25 The “best interests” standard is also inefficient for courts
and parties. It frequently causes courts and parties to focus on
evidence that mental health research shows is irrelevant from a
child welfare perspective and often results in multiple protracted
hearings, some of which are duplicative, which wastes judicial re­
sources and family resources that might otherwise be available to
the children.
26 Monongahela Nav. Co. v. United States, 148 U.S. 312, 325
(1893).

68a
the vague but superficially laudable “best interests”
standard are alarming but perhaps not surprising. As
Justice Brandeis observed 90 years ago, “ [experience
should teach us to be most on our guard to protect lib­
erty when the Government’s purposes are beneficent.
Men born to freedom are naturally alert to repel inva­
sion of their liberty by evil-minded rulers. The greatest
dangers to liberty lurk in insidious encroachment by
men of zeal, well-meaning but without understand­
ing. ”27
Implications
Several conclusions can be deduced from the law
and evidence discussed thus far. First, our child cus­
tody practices are based on a standard - best interests
of the child - that many lawyers and observers believe
provides no real guidance. The wide variation in out­
comes among similar fact patterns suggests the stand­
ard is unconstitutionally vague. The Nebraska
Supreme Court has already held in a related context
the best interests of the child standard is unconstitu­
tionally vague.
Second, judges often issue parenting plans that vi­
olate substantive due process rights of parents. Under
Troxel and Richmond, both parents have constitution­
ally protected rights to the parent-child relationship.
Judicial decisions that affect these fundamental rights
27 Chandler v. Miller, 520 U.S. 305, 322 (1997) (quoting
Olmstead v. United States, 277 U.S. 438, 479 (1928) (Brandeis, J.,
dissenting)).

69a
are subject to strict scrutiny and must use the least
restrictive means available. This means judicial deci­
sions involving two fit parents that award sole legal
custody and primary physical custody to one parent
over the objections of the other parent should rarely
pass Constitutional scrutiny.
Third, family law cases too often produce parent­
ing plans that violate the Equal Protection Clause.
Gender classifications “cannot be validated on the ba­
sis of the State’s preference for an allocation of family
responsibilities under which the wife plays a depend­
ent role.” Yet, custody data and anecdotal evidence sug­
gest judges often use gender classifications in ways
that do not comply with the Equal Protection Clause.
So where does this leave us? Despite these prob­
lems, it is possible to bring our family law practices
into Constitutional compliance. With additional objec­
tive elements, the “best interests of the child” standard
could survive Constitutional scrutiny. Fortunately, the
additional standards necessary will likely be con­
sistent with what mental health research shows pro­
vides the best outcomes for children.28

28 See Linda Nielsen, “Joint Versus Sole Physical Custody:
What Does the Research Tell Us About Children’s Outcomes?”
Neb. Lawyer (July/Aug 2018) at 39.
See also, e.g., Linda Nielsen, “Joint Versus Sole Physical Cus­
tody: Children’s Outcomes Independent of Parent-Child Relation­
ships, Income, and Conflict in 60 Studies,” 59 J. Div. &
Remarriage 247 (2018); Richard Warshak, “Night Shifts: Revisit­
ing Blanket Restrictions on Children’s Overnights With Separated
Parents,” 59 J. Div. & Remarriage 282 (2018); Emma Fransson et

70a
Proposed Framework
Judicial decisions regarding legal custody and par­
enting time implicate fundamental Constitutional
rights. As a result, these decisions must be narrowly
tailored and must use the least restrictive means
available. This means the judge must protect each par­
ent’s Constitutional rights to the greatest extent pos­
sible, as well as the child’s corollary right to a
meaningful relationship with each parent.
Constitutional compliance requires trial courts to
start every case from a position of joint legal custody
and equal parenting time. Clear and convincing evi­
dence must justify a departure from this equality. De­
cisions cannot rest on personal preferences of the judge
or on gender stereotypes. Any deviations from joint le­
gal custody and equal parenting time must be achieved
by the least restrictive means available.
For example, parental conflict should not automat­
ically preclude an award of joint legal custody. Instead,
the court could use tie-breaker provisions to divide fi­
nal decision making authority between the parents ra­
ther than creating a winner-take-all outcome. Not only
al, “What Can We Say Regarding Shared Parenting Arrangements
for Swedish Children,” 59 J. Div. & Remarriage 349 (2018); Wil­
liam Fabricius et al, “What Happens When There is Presumptive
50150 Parenting Time? An Evaluation of Arizona’s New Child
Custody Statute,” 59 J. Div. & Remarriage 414 (2018); Sanford
Braver and Ashley Votruba, “Does Joint Physical Custody ‘Cause’
Children’s Better Outcomes?” 59 J. Div. & Remarriage 452 (2018);
Richard Warshak, “Social Science and Parenting Plans for Young
Children: A Consensus Report,” 20 Psych. Pub. Pol. & Law 46
(2014).

71a
would this comply with the Constitutional require­
ments (because tie-breaker provisions are less restric­
tive than sole decision making authority to one
parent), it also incentivizes cooperative behavior and
discourages gamesmanship. Research shows this pro­
duces better outcomes for children.
The essential new approach also means trial
courts should maximize the parenting time of both
parents.29 In an ideal world, this would mean a 50/50
division of parenting time but life is not always so easy.
In situations where the parents live sufficiently far
apart that an equal division of time is unworkable, the
trial court could grant the parent with whom the chil­
dren do not live during the school year a dispropor­
tionate number of school holidays and summer
parenting days to compensate for the unequal division
of time during the school-year. The court could also or­
der that the child live certain school years with one
parent and other school years with the other, as has
been successful in many cases. For example, a child
could live with the mother for elementary school and
the father for middle and high school. This also means
the pre-separation roles played by each parent are

29 Mental health research shows the opportunity to have a
meaningful relationship with both parents is far more important
to child outcomes than living in one home. See, e.g., William Fabricius, “Latest Mental Health Research on Parenting Time and
Outcomes for Children of Divorce," invited presentation at the
conference on Latest Trends & Emerging Issues at the Intersection
of Mental Health and Family Law (Sept. 23, 2016).

72a
generally not relevant to their future roles under the
parenting plan.
When reviewing trial decisions, appellate courts
must apply the standard of review they apply to other
cases involving fundamental Constitutional rights strict scrutiny. This means little deference to the trial
judge. It also means appellate courts must ensure that,
if the decision does not treat the parents equally, the
trial court adopted the least restrictive means availa­
ble.
Appellate courts will be required to apply progres­
sively more scrutiny to trial decisions as they get far­
ther away from equal time and equal decision-making.
In other words, an appellate court should apply more
scrutiny to a trial decision that awarded sole legal cus­
tody and 80/20 parenting time than one that awarded
joint legal custody and 60/40 parenting time.
Recent Trends
Nebraska’s current child custody regime presents
serious Constitutional issues. Fortunately, the turn to
the future may already be in progress.
In March 2018, the Nebraska Court of Appeals af­
firmed a trial order that modified an existing shared
parenting arrangement because of a breakdown in
communication between the parties. The trial court
kept the shared parenting arrangement but modified
it to create a week-on/week-off plan to reduce the num­
ber of exchanges and add tie-breaker provisions to the

73a
joint legal custody arrangement (two tie-breakers for
each parent). The new arrangement satisfied strict
scrutiny because it used the least restrictive means
available despite the breakdown in communication.30
In November 2017, the Court of Appeals reversed
a trial order and ordered a week on/week off parenting
plan. The case involved a request to modify a parenting
plan in which the parents previously agreed the chil­
dren would live primarily with their father because the
parents at that time lived too far apart to make shared
parenting feasible. Since the original parenting plan
was entered, however, the mother’s circumstances
changed so a week on/week off parenting plan was now
feasible. The Court of Appeals held “modifying custody
to a week on/week off parenting schedule is in the chil­
dren’s best interests.” This decision satisfied strict
scrutiny because it treated the parents equally.31
In October 2017, the Court of Appeals affirmed a
trial order that granted a father’s request to modify an
existing parenting plan to a week-onAveek-off sched­
ule. The court also affirmed the award of joint legal
custody with the father being granted final decision­
making authority over educational decisions. This de­
cision satisfied strict scrutiny because it used the least
restrictive means available.32
30 Yaeger v. Fenster, No. A-17-452 (Neb. Ct. App 2018).
31 Berndt v. Berndt, 25 Neb. App. 272 (2017).
32 Crow v. Chelli, No. A-16-869 (Neb. Ct. App. 2017). See also,
e.g., Schmeidler v. Schmeidler, 25 Neb. App. 802 (2018) (reversing
in part a judicially-created parenting plan and increasing the fa­
ther’s summer parenting time from two weeks to six weeks);

74a
Conclusion
As Thomas Paine observed, “a long habit of not
thinking a thing wrong, gives it a superficial appear­
ance of being right .”33 Time has given the “best inter­
ests” standard the “superficial appearance of being
right,” but the standard’s disregard for the Constitu­
tion and history of enabling harmful outcomes for chil­
dren proves otherwise.
It is reasonable to expect the Nebraska Supreme
Court to speak to this issue, and to the trend set by the
Court of Appeals in the past eighteen months.
The future of the law often appears first in an ap­
pellate decision that does not win a majority vote. In
this context, Justice David Puryear of the Texas Court
of Appeals observed:
I write separately to express my belief that
the standards currently used in making and
reviewing orders that have the effect of limit­
ing a parent’s access to his or her children do
not reflect the legislative mandate regarding
parental access, nor do they adequately re­
spect the scope of the liberty interest enjoyed
by a parent in rearing his or her own children.
Because of the gravity of the constitutional
Spethman v. Spethman, No. A-16-292 (Neb. Ct. App. 2017) (af­
firming a trial decision that awarded joint legal custody and a
week-on/week-off parenting plan despite unfavorable behaviors
by both parents); Thompson v. Thompson, 24 Neb. App. 349
(2016) (reversing a judicially-created parenting plan because
“awarding [father] only two weekends of parenting time per
month under the parenting plan was an abuse of discretion.”).
33 Thomas Paine. Common Sense.

75a
rights and interests at stake in such proceed­
ings, and because the current standard is
based upon outdated notions of parenting that
predate the family code and run counter to the
legislature’s stated policy concerning chil­
dren’s best interests, trial courts should jus­
tify deviation from maximum feasible time
with both parents by clear and convincing ev­
idence and make factual findings, and appel­
late courts should carefully review those
findings. . . .
Despite the United States Supreme Court’s
determination to subject infringement upon
such fundamental rights to strict scrutiny and
of our own legislature’s mandate to preserve
and foster parent-child relationships, . . .
courts have developed a jurisprudence under
which trial court decisions severely curtailing
that relationship stand absent an abuse of
discretion. Considering issue and the legisla­
ture’s clear mandates that courts take
measures to protect this most sacred of rela­
tionships, I believe we need to carefully re­
examine the standards by which decisions
that limit a parent’s access to or possession of
a child are made and reviewed.34
34 In Re J.R.D. and T.C.D., 169 S.W. 3rd 740, 752 (Tex.App. Austin 2005) (Puryear, J., concurring) (internal citations omitted).
The Nebraska Parenting Act has a similar legislative mandate to
preserve and foster parent-child relationships. “ . . . Nebraska’s
Parenting Act recognizes the importance of both parents remaining
active and involved in parenting in order to serve the best inter­
ests of the child.” Schmeidler v. Schmeidler, 25 Neb. App. 802
(2018).

76a
We, the authors, agree.

